  DEPARTMENT OF HOMELAND SECURITY

        Office of Inspector General

     Audit of Buy American Act Compliance




               Office of Audits
OIG-05-23                            June 2005
                                                                        Office of Inspector General

                                                                        U.S. Department of Homeland Security
                                                                        Washington, DC 20528




                                               Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared by the OIG as
part of its DHS oversight responsibility to promote economy, effectiveness, and efficiency within the
Department.

This report assesses the strengths and weaknesses of DHS’ compliance with the Buy American
Act. It is based on interviews with employees and officials of relevant agencies and institutions,
direct observations, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to the OIG,
and have been discussed in draft with those responsible for implementation. It is our hope that this
report will result in more effective, efficient, and economical operations. We express our
appreciation to all of those who contributed to the preparation of this report.




                                             Richard L. Skinner
                                             Acting Inspector General
Table of Contents


    Executive Summary ....................................................................................................................... 1

    Background .................................................................................................................................... 2

    Results of Audit ............................................................................................................................. 4

         Policies And Oversight Processes To Ensure BAA Compliance ........................................... 4

         Limited Ability To Collect Data For Foreign End Products ................................................... 5

         Infrequent Acquisitions Involving Foreign End Products ....................................................... 6

         Incorrect Evaluation Factors Applied For A Pistol Procurement ............................................ 7

         Automated Contract Writing Systems Not Always Available ............................................... 7

         Conclusions and Recommendations ........................................................................................ 8


Management Comments and OIG Analysis ........................................................................................ 8

Appendices
    Appendix A:                Purpose, Scope, and Methodology.................................................................. 10
    Appendix B:                Management Response to Draft Report.......................................................... 11
    Appendix C:                Major Contributors to this Report................................................................... 13
    Appendix D:                Report Distribution ......................................................................................... 14
Abbreviations


 BAA       Buy American Act
 CBP       Customs and Border Protection
 CO        Contracting Officer
 DHS       Department of Homeland Security
 FAR       Federal Acquisition Regulation
 FPDS      Federal Procurement Data System
 FPDS-NG   Federal Procurement Data System – Next Generation
 H.R.      House of Representatives
 HSCIS     Homeland Security Contract Information System
 HSAM      Homeland Security Acquisition Manual
 HSAR      Homeland Security Acquisition Regulations
 ICE       Immigration and Customs Enforcement
 NAFTA     North American Free Trade Agreement
 OCPO      Office of Chief Procurement Officer
 OMB       Office of Management and Budget
 OIG       Office of Inspector General
 TSA       Transportation Security Administration
 U.S.C.    United States Code
 USCG      United States Coast Guard
 USSS      United States Secret Service
                                                                           Audit
OIG                                                                        Report
Department of Homeland Security
Office of Inspector General




Executive Summary

                The House of Representatives Conference Report H.R. 108-774 for the
                Department of Homeland Security’s (DHS’) appropriation for fiscal year 2005
                directed the Office of Inspector General (OIG) to audit DHS’ compliance with
                the Buy American Act (BAA). In response to this direction, we reviewed
                DHS’ policies, procedures, and practices to determine whether sufficient
                controls were in place to ensure that DHS fully complied with BAA
                requirements. The Conference Report required that we submit our report at
                the same time the President submits to Congress the budget for fiscal year
                2006 which limited the amount of time for required fieldwork.

                Our fieldwork began in November 2004 and continued through February 2005
                at several DHS organizational component procurement offices. See Appendix
                A for a more detailed description of our objective, scope, and methodology.


                DHS and its organizational component procurement offices have sufficient
                policies and procedures to ensure compliance with BAA requirements.
                However, we were unable to fully validate compliance with BAA
                requirements because of DHS’ inability to identify conclusively all
                procurements subject to BAA requirements and the tight time constraints
                under which the audit had to be conducted. Following is a summary of our
                review:

                1. DHS organizational components have procurement oversight processes to
                   ensure that Federal Acquisition Regulations (FAR) requirements,
                   including BAA, are incorporated appropriately into contracts.

                2. Neither the Federal Procurement Data System – Next Generation (FPDS-
                   NG) nor the Homeland Security Contract Information System (HSCIS)
                   have the capability to collect data regarding the amounts and types of
                   foreign end products being procured by DHS.

                3. DHS organizational components identified acquisitions worth
                   approximately $165 million involving foreign end products. These


                 Audit of Buy American Act Compliance                                  Page 1
                acquisitions do not represent the entire BAA universe at DHS. While DHS
                believes that acquisition of foreign end products occurs infrequently,
                system limitations make it difficult to determine the actual frequency of
                foreign acquisitions.

             4. Immigration and Customs Enforcement (ICE) incorrectly applied BAA
                evaluation factors during the source selection process for a major
                procurement of pistols.

             5. Automated contract writing systems that help ensure BAA compliance are
                not available at all procurement offices at this time.


             We are recommending that the Office of the Chief Procurement Officer:

             1. Provide additional training to procurement personnel regarding the BAA
                requirements and the application and use of BAA evaluation factors.

             2. Complete the scheduled implementation of automated contract writing
                systems for all DHS organizational components to ensure compliance with
                BAA and other FAR requirements.

             3. Consult with OMB regarding the necessity for government-wide tracking
                of BAA compliance within FPDS-NG.

             4. Revise HSCIS guidance to change the country of origin field to a
                mandatory field, when applicable.

             5. Require organizational components to continue manual data collection on
                domestic and foreign end product data, until automated systems to collect
                this information become available.

Background
             The BAA of 1933, 41 U.S.C. 10a-10d, was enacted during the Depression to
             foster and protect American industry and workers. The BAA requires, with
             certain exceptions, that only articles, materials, and supplies that have been
             mined, produced, or manufactured in the United States be utilized in fulfilling
             federal procurement and construction contracts. The BAA is applicable only to
             articles, materials and supplies; and is not applicable to professional or
             personal services. Certain trade agreements, e.g., the North America Free
             Trade Agreement (NAFTA) waive the applicability of BAA for some foreign
             supplies and construction materials from certain countries.


             Audit of Buy American Act Compliance                                     Page 2
In the Conference Report accompanying DHS’ fiscal year 2005 appropriations,
Congress directed the Secretary of DHS to report to the Committees on
Appropriations on the supplies acquired by the DHS during fiscal year 2005
that were manufactured outside of the United States as well as an itemized list
of all waivers granted with respect to such supplies. The report should include
a summary of the total funds spent by DHS on goods manufactured within the
United States compared with funds spent on goods manufactured outside of the
United States. DHS issued Acquisition Alert Number 05/04 on November 16,
2004, which requires DHS organizational components to provide the
Congressionally required information to the DHS Office of Chief Procurement
Officer by October 31, 2005. The Conference Report also served as the
impetus for this audit since it directed the Inspector General to audit DHS’
compliance with BAA.

BAA requirements are incorporated in FAR Part 25, “Foreign Acquisition.”
FAR Subpart 25.1, “Buy American Act Supplies,” contains detailed guidance
regarding: the policy, applicable exceptions, a listing of articles not available
in the United States, and determining reasonableness of cost for domestic end
products that are not the low offer. FAR Subpart 25.5, “Evaluating Foreign
Offers - Supply Contracts,” contains detailed guidance and numerous
examples on the steps to follow when evaluating foreign offers for supply
contracts.

According to FAR 25.105, “Determining the reasonableness of cost,” if there is
a domestic offer that is not the low offer and the BAA applies, the contracting
officer must determine the reasonableness of the cost of the domestic offer by
adding to the price of the low offer, inclusive of duty, (1) 6 percent, if the
lowest domestic offer is from a large business concern; or (2) 12 percent, if the
lowest domestic offer is from a small business concern. The price of the
domestic offer is reasonable if it does not exceed the evaluated price of the low
offer after addition of the appropriate evaluation factor, 6 or 12 percent.

The Federal Procurement Data System (FPDS) collects historical and statistical
information about the federal Government’s procurement contracts to meet the
information needs of the Congress, federal agencies, and the public. FPDS can
be modified when new information requirements are imposed, such as BAA
reporting, government-wide. The FPDS – NG is the most recent change to
FPDS. The transition period for FPDS-NG began in October 2003 and is
expected to last at least two years. The HSCIS provides data collection and
reporting capabilities for DHS to comply with required reporting of
procurement actions to FPDS. It creates a DHS-wide database of DHS
procurement actions that are reported to FPDS.



Audit of Buy American Act Compliance                                        Page 3
Results of Audit
               DHS procurement policies and internal controls, if implemented properly,
               appear to be sufficient to ensure compliance with BAA requirements.
               However, we were unable to validate the effectiveness of DHS’ BAA
               compliance because the HSCIS and DHS’ organizational components could
               not conclusively identify procurements where BAA waivers and
               determinations, i.e., public interest, nonavailability, and unreasonable cost,
               were conducted. Neither FPDS nor HSCIS have the capability to identify all
               contracts with BAA-related contract activity and report accurately on the
               types and amounts of foreign domestic products purchased by DHS. In
               addition, the limited time available to conduct our audit prevented us from
               conducting the extensive file reviews necessary to overcome the HSCIS
               limitations. DHS organizational components identified acquisitions of about
               $165 million involving foreign end products. These acquisitions do not
               represent the entire BAA universe at DHS. While DHS believes that
               acquisition of foreign end products occurs infrequently, system limitations
               make it difficult to determine the actual frequency of foreign acquisitions.

               We identified one major procurement in which incorrect evaluation factors
               were used in evaluating foreign and domestic offers. Even with this error, the
               low domestic offeror was still awarded a contract under a multiple award best
               value source selection process, and received approximately 58% of the
               purchase orders, as of December 2004.

               The United States Coast Guard (USCG) and Transportation Security
               Administration (TSA) reported that some of their procurement offices do not
               have access to a centralized contract writing system that contain automated
               safeguards to ensure BAA compliance. Major procurement offices currently
               lacking automated contract writing systems are scheduled to obtain them in
               fiscal year 2005.


               Policies And Oversight Processes To Ensure BAA Compliance

               The policy and guidance set forth in FAR Part 25, “Foreign Acquisition,” and
               the Homeland Security Acquisition Manual, if implemented, are adequate to
               ensure compliance with BAA requirements. In addition, DHS procurement
               internal control systems are designed to ensure that all FAR requirements,
               including BAA, are met. DHS’ organizational components have controls
               which require that a solicitation or contract award be reviewed by the
               contracting officer (CO), the CO’s supervisor, the Chief of the Contracting



                   Audit of Buy American Act Compliance                                  Page 4
Office, the Head of the Contracting Activity, or the cognizant Office of
Counsel, depending on the dollar value and contract type.

In addition, the USCG operates a procurement management review program
for their procurement offices. This review program uses independent reviews
or validated self-assessments to ensure that FAR requirements are met. A
draft version of the implementing instruction for the USCG procurement
management review program specifically addresses BAA compliance.

The tight time constraints under which our audit had to be conducted did not
allow us to fully validate the effectiveness of each organizational component’s
internal control procedures in ensuring BAA compliance. In our limited
sample, BAA provisions were incorporated appropriately into all but one of
the solicitations and contracts. We verified the existence of internal control
procedures, i.e., management review sign off sheets and review comments
fields in automated systems, at several DHS procurement offices and
validated that some oversight of the procurement process is being provided.


Limited Ability To Collect Data For Foreign End Products

While HSCIS has the capability to collect information regarding country of
origin for a contract as a whole, it does not have the capability to provide
automated reporting regarding the amounts and types of foreign end products.
For example, HSCIS currently records only one country of origin for a
specific contract and does not have the capability to track contracts containing
multiple contract line items with multiple countries of origin. In addition, the
HSCIS User Manual does not list the country of origin field as a mandatory
field. Therefore, contracting personnel are not required to enter country of
origin data into the HSCIS database.

The DHS Office of Chief Procurement Officer (OCPO) confirmed these
HSCIS limitations and speculated that DHS organizational components do not
have an automated capability to report the country of origin data into HSCIS.
Unless HSCIS or the organizational component’s management information
systems, which feed into HSCIS, are modified to collect the country of origin,
the amounts, and types of supplies for individual contract line items; data
collection regarding BAA compliance is likely to be a labor intensive process.
Organizational component officials advised us that they have to manually
collect the data to provide the information on the domestic and foreign end
product data requested by H.R. 108-774.




Audit of Buy American Act Compliance                                       Page 5
OCPO reported that because HSCIS will be phased out when FPDS-NG
becomes fully operational, OMB is unwilling to provide funds to improve
capabilities for HSCIS. Therefore, OCPO will not be able to provide
improved Buy American tracking capabilities within HSCIS. OCPO also
reported that implementation of FPDS-NG is behind schedule and that
improvements to FPDS-NG cannot be made until the basic system becomes
fully operational. In addition, since FPDS is a government-wide contract
reporting system, changes to FPDS are made generally when the requestor can
support the need for a change on a government-wide basis. Finally, like
HSCIS, FPDS does not have the capability to track country of origin for
individual line items with separate countries of origin.

Infrequent Acquisitions Involving Foreign End Products

DHS organizational elements identified acquisitions worth approximately
$165 million involving foreign end products. These acquisitions do not
represent the entire BAA universe. While DHS believes that acquisition of
foreign end products occurs infrequently, system limitations make it difficult
to determine the actual frequency of foreign acquisitions. HSCIS does not
require organizational components to input the country of origin into HSCIS.
Therefore, the actual amount and types of foreign end products being procured
by DHS organizational components for fiscal year 2004 and 2005 are not
available in either HSCIS or FPDS.

The table below lists the contract awards involving foreign end products
reported to us by DHS organizational components.

                                          Year of Foreign End        Domestic
   Agency          Item Description       Award       Product      End Product
    CBP               Helicopters          2004         $152 M*         $164 M*
    ICE                  Pistols           2004           $3.3 M          $4.6 M
    TSA                  Pistols           2003          $0.5 M                $0
   USCG          Personal Emergency        2002          $4.1 M                $0
                  Position Indicating
                    Radio Beacons
   USCG                Handheld            2003          $5.5 M                $0
                    Spectrometers
                      Totals                           $165.4 M        $168.6 M
* These figures represent total contract values. The exact amount of foreign and
domestic end products were not ascertainable.




Audit of Buy American Act Compliance                                       Page 6
Incorrect Evaluation Factors Applied For A Pistol Procurement

In one major procurement for pistols, ICE applied an inappropriate evaluation
factor to some foreign offers in determining the reasonableness of cost. The
low domestic offer was from a small business, and ICE applied a 6 percent
evaluation factor to some foreign offers instead of the 12 percent evaluation
factor as required by FAR 25.105, “Determining reasonableness of cost.”
This error occurred despite preaward reviews by procurement management
and the Office of Counsel. The infrequency of procurements involving
foreign end products could have contributed to this error. Although
procurement staff were aware of the BAA, they reported little recent
experience in implementing BAA requirements. Even with this error, the low
domestic offeror was still awarded a contract under a multiple award best
value source selection process and, as of December 2004, received
approximately 58% of the purchase orders.

Automated Contract Writing Systems Not Always Available

CBP, ICE, and portions of USCG reported that their contract writing systems
are designed to ensure BAA-related clauses are considered for inclusion in
solicitations and contracts. However, TSA and portions of USCG reported
that they do not have these automated contract systems and may be at
increased risk of awarding contracts without full compliance with BAA
requirements. Organizational components without automated systems
reported that they use management oversight or approved standard clause
matrices to mitigate the risk of BAA non-compliance.

Over the past several years, most major DHS organizational components have
either implemented or upgraded their automated contract writing systems.
With the exception of some USCG field offices, which have limited
procurement authority, major procurement offices currently lacking automated
contract writing systems are scheduled to obtain them in fiscal year 2005.

We were unable to determine the extent to which required BAA clauses are
contained in solicitations and contracts due to the following reasons:

   •   Organizational components could not readily identify contracts with
       BAA applicability.
   •   HSCIS does not currently track the country of origin for individual
       contract line items and country of origin is not a mandatory field for
       completion in HSCIS.
   •   Due to time constraints, we were unable to verify BAA compliance at
       DHS field offices.



Audit of Buy American Act Compliance                                     Page 7
             Conclusions and Recommendations

             While DHS policies and procedures adequately address BAA requirements,
             DHS needs to take steps to better ensure compliance. We recommend that
             OCPO:

             1. Provide additional training to procurement personnel regarding the BAA
                requirements and the application and use of BAA evaluation factors.

             2. Complete the scheduled implementation of automated contract writing
                systems for all DHS organizational components to ensure compliance with
                BAA and other FAR requirements.

             3. Consult with OMB regarding the necessity for government-wide tracking
                of BAA compliance within FPDS-NG.

             4. Revise HSCIS guidance to change the country of origin field to a
                mandatory field, when applicable.

             5. Require organizational components to continue manual data collection on
                domestic and foreign end product data, until automated systems to collect
                this information become available.


Management Comments and OIG Analysis
             We obtained written comments (Appendix B) on a draft of this report from
             DHS. DHS concurred with our recommendations. Below is a summary of
             DHS’ response to each recommendation and our assessment of the response.

             Recommendation 1: Provide additional training to procurement
             personnel regarding the BAA requirements and the application and use
             of BAA evaluation factors.

             DHS concurred, and will provide BAA guidance to procurement personnel.
             We consider this recommendation to be resolved, and will close it when
             implementation is complete.




             Audit of Buy American Act Compliance                                    Page 8
Recommendation 2: Complete the scheduled implementation of
automated contract writing systems for all DHS organizational
components to ensure compliance with BAA and other FAR
requirements.

DHS concurred, and is moving ahead with their implementation. We consider
this recommendation to be resolved, and will close it when implementation is
complete.

Recommendation 3: Consult with OMB regarding the necessity for
government-wide tracking of BAA compliance within FPDS-NG.

DHS concurred, and will consult with OMB regarding tracking BAA
compliance within FPDS-NG. We consider this recommendation to be
resolved, and will close it upon completion of DHS’ efforts with OMB.

Recommendation 4: Revise HSCIS guidance to change the country of
origin field to a mandatory field, when applicable.

DHS concurred, and will clarify HSCIS guidance. We consider this
recommendation to be resolved, and will close it when implementation is
complete.

Recommendation 5: Require organizational components to continue
manual data collection on domestic and foreign end product data, until
automated systems to collect this information become available.

DHS concurred. We consider this recommendation to be resolved, and will
close it when implementation is complete.




Audit of Buy American Act Compliance                                      Page 9
Appendix A
Purpose, Scope, and Methodology




Our objective in reviewing the DHS procurement policies, procedures, and
practices was to determine the extent to which sufficient controls were in
place to ensure BAA requirements compliance.

Our fieldwork began in November 2004 and continued through January 2005.
We interviewed DHS organizational element procurement management
personnel regarding BAA compliance issues. We interviewed personnel from
DHS OCPO to determine whether procurement data is readily available within
HSCIS or FPDS-NG regarding the types and amounts of foreign domestic
products being procured by the Department.

In conducting our audit, we reviewed the following items:

•   relevant sections of the United States Code, Federal Acquisition
    Regulations, DHS Acquisition Manual, DHS Acquisition Regulations, the
    Homeland Security Contracts Information System Manual, the FPDS-NG
    Data Dictionary, and various DHS organizational element acquisition
    regulations;
•   the extent of controls and oversight for BAA compliance being conducted
    for procurement activities within CBP, ICE, USCG, and USSS;
•   contract writing systems at several organizational components to
    determine whether they contained safeguards to ensure BAA compliance;
    and
•   individual contracts involving BAA requirements at CBP, ICE, TSA,
    USCG, and USSS. The short timeframe for conducting the audit did not
    allow us to review contracts at all DHS agencies.

We conducted the audit pursuant to the Inspector General Act of 1978, as
amended, and according to generally accepted government auditing standards.

Throughout the audit, we worked closely with the Chief Procurement Office
and various procurement officials within the organizational elements. The
cooperation and courtesies extended to the audit team are appreciated. The
principal OIG point of contact for the audit is Assistant Inspector General for
Audits, J. Richard Berman, (202) 254-4100. Major OIG contributors to the
audit are identified in Appendix C.




Audit of Buy American Act Compliance                                      Page 10
Appendix B
Management Response to Draft Report




Audit of Buy American Act Compliance   Page 11
Appendix B
Management Response to Draft Report




Audit of Buy American Act Compliance   Page 12
Appendix C
Major Contributors To Report




Judy Leonhardt, Director, Procurement and Acquisition Programs
David O’Connell, Supervisory Auditor
Egenia Adekunjo, Senior Auditor




Audit of Buy American Act Compliance                             Page 13
Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   General Counsel
   Under Secretary for Management
   Under Secretary for Border and Transportation Security
   Under Secretary for Emergency Preparedness and Response
   Under Secretary for Science and Technology
   Commandant, U.S. Coast Guard
   Director, U.S. Secret Service
   Office of the Chief Procurement Officer
   DHS OIG Liaison
   DHS Public Affairs
   CBP Audit Liaison
   EPRD Audit Liaison
   FLETC Audit Liaison
   ICE Audit Liaison
   S&T Audit Liaison
   TSA Audit Liaison
   USCG Audit Liaison
   USSS Audit Liaison


Office of Management and Budget

   Homeland Security Branch Chief
   DHS OIG Budget Examiner

Congress

   Congressional Oversight and Appropriations Committees, as appropriate




Audit of Buy American Act Compliance                                Page 14
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General (OIG) at
(202) 254-4100, fax your request to (202) 254-4285, or visit the OIG web site at
www.dhs.gov.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to department programs or operations, call the
OIG Hotline at 1-800-323-8603; write to DHS Office of Inspector General/MAIL
STOP 2600, Attention: Office of Investigations - Hotline, 245 Murray Drive, SW,
Building 410, Washington, DC 20528, or email DHSOIGHOTLINE@dhs.gov. The
OIG seeks to protect the identity of each writer and caller.




                    Audit of Buy American Act Compliance                           Page 15
